App. 1
No. 20-3422
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: HAROLD PERSAUD,
Movant.

)
)
)
)

ORDER
(Filed Oct. 7, 2020)

Before: SUHRHEINRICH, GIBBONS, and KETHLEDGE, Circuit Judges.
Harold Persaud, a federal prisoner represented by
counsel, moves the court for an order authorizing the
district court to consider a second or successive motion
to vacate, set aside, or correct his sentence under 28
U.S.C. § 2255. See 28 U.S.C. §§ 2244(b), 2255(h). The
government moves to strike Persaud’s supplemental
brief in support of his application.
In 2015, a federal jury convicted Persaud of
healthcare fraud, multiple counts of making false
statements relating to healthcare matters, and money
laundering. The district court sentenced Persaud to a
total term of twenty years of imprisonment, and we afﬁrmed. See United States v. Persaud, 866 F.3d 371 (6th
Cir. 2017).
In 2018, Persaud, though counsel, ﬁled a § 2255
motion in the district court, raising two claims of ineffective assistance of trial and appellate counsel.
First, Persaud claimed that his trial and appellate attorneys performed ineffectively by not contesting the

App. 2
government’s presentation of expert and lay witness
opinion testimony. Second, Persaud claimed his trial
and appellate attorneys performed ineffectively by not
objecting to the loss amount on which the district court
based his sentencing range under the Sentencing
Guidelines. The district court denied Persaud’s motion,
and we denied Persaud a certiﬁcate of appealability.
See Persaud v. United States, No. 19-3041 (6th Cir. Mar.
28, 2019) (order).
In February 2020, Persaud, now represented by
new counsel, ﬁled a motion to reopen his § 2255 motion
under Federal Rule of Civil Procedure 60(b). Persaud
claimed that there was a “defect” in his § 2255 proceedings because his original post-conviction counsel failed
to raise a claim that his trial attorney was ineffective
for failing to properly explain his sentencing exposure
by going to trial versus accepting a plea offer from the
government. Persaud claimed that had his trial attorney properly explained his sentencing risks, he would
have pleaded guilty instead of going to trial. The district court construed Persaud’s Rule 60 motion as a
second or successive motion to vacate and transferred
it to this court for permission to consider it. See In re
Sims, 111 F.3d 45, 47 (6th Cir. 1997) (per curiam).
Persaud then ﬁled a corrected application for authorization in this court, raising the same claim. Persaud
argues, however, that the district court incorrectly construed his Rule 60 motion as a second or successive
motion to vacate because the claimed ineffective assistance of his postconviction counsel raises a defect in
his §2255 proceedings and not a new “claim” for relief,

App. 3
as deﬁned by Gonzalez v. Crosby, 545 U.S. 524 (2005).
As he did below, Persaud relies on Ramirez v. United
States, 799 F.3d 845 (7th Cir. 2015), to support his contention that he ﬁled a “true” Rule 60 motion and not a
successive § 2255 motion.
In Gonzalez, the Supreme Court clariﬁed the difference between a “true” Rule 60 motion and a Rule 60
motion that sets forth a “claim” which is in actuality a
second or successive habeas petition that requires preauthorization by a court of appeals to ﬁle. A Rule 60
motion, the Court said, “attacks not the substance of
the federal court’s resolution of a claim on the merits,
but some defect in the integrity of the federal habeas
proceedings.” 545 U.S. at 532. The Court explained further that “an attack based on the movant’s own conduct, or his habeas counsel’s omissions, ordinarily does
not go to the integrity of the proceedings, but in effect
asks for a second chance to have the merits determined
favorably.” Id. at 532 n.5.
On the other hand, a Rule 60 motion contains a
“claim” if it: (1) “assert[s] that owing to ‘excusable neglect,’ Fed. Rule Civ. Proc. 60(b)(1), the movant’s habeas petition had omitted a claim of constitutional
error, and seek[s] leave to present that claim”; (2) “present[s] ‘newly discovered evidence,’ Fed. Rule Civ. Proc.
60(b)(2), in support of a claim previously denied”; (3)
“contend[s] that a subsequent change in substantive
law is a ‘reason justifying relief,’ Fed. Rule Civ. Proc.
60(b)(6), from the previous denial of a claim”; (4) “seeks
to add a new ground for relief ”; or (5) “attacks the

App. 4
federal court’s previous resolution of a claim on the
merits.” Id. at 530-32.
Under these standards, the district court correctly
determined that Persaud’s Rule 60 motion was really
a second or successive motion to vacate. First, Persaud
plainly raised an entirely new claim for relief from his
sentence, i.e., his trial attorney’s misadvice about his
sentencing exposure caused him to go to trial instead
of pleading guilty and receiving a lower sentence.
That fact alone distinguishes this case from Ramirez.
Second, Persaud asserted that his failure to raise
this claim in his § 2255 motion was due to excusable
neglect, i.e., the ineffective assistance of his postconviction counsel. And third, his post-conviction
counsel’s omission of this claim from his § 2255 motion
was not a defect in the proceedings for purposes of
Rule 60. The district court’s transfer order was therefore correct.
To receive permission to ﬁle a second or successive
motion to vacate, Persaud must make a prima facie
showing that his proposed claim is based on newly discovered evidence, see 28 U.S.C. § 2255(h)(1), or a new
rule of constitutional law that was previously unavailable and that the Supreme Court has made retroactive
to cases on collateral review, see 28 U.S.C. § 2255(h)(2);
In re Sargent, 837 F.3d 675, 676 (6th Cir. 2016). Persaud concedes that his new claim does not satisfy either one of these criteria.

App. 5
Accordingly, we DENY Persaud’s motion for authorization and DENY as moot the government’s motion to strike.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 6
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION
UNITED STATES
OF AMERICA,
Plaintiff,
-vsHAROLD PERSAUD,
Defendant.

)
)
)
)
)
)
)
)

Case No. 1:14-CR-276
JUDGE
RONALD C. NUGENT
MEMORANDUM
OPINION AND ORDER
(Filed Apr. 14, 2020)

This case is before the Court on Defendant, Harold
Persaud’s Motion Pursuant to Rule 60(b), Fed.R.Civ.P.
to ReOpen 28 U.S.C. §2255 Proceeding. (ECF #237).
The Government ﬁled a Response in Opposition to Mr.
Persaud’s motion, and Mr. Persaud ﬁled a Reply in
Support of his Motion. (ECF #238, 239).
Following a nearly month long trial, Mr. Persaud
was convicted of ﬁfteen counts including healthcare
fraud, false statements relating to health care matters, and money laundering. On December 18, 2015,
he was sentenced to twenty years and ordered to pay
$5,486,857.00 in restitution. A forfeiture order was
also issued in the case. Mr. Persaud appealed and all
convictions, sentences, and other orders were afﬁrmed.
(ECF #214). On June 18, 2018, the Defendant ﬁled a
motion to vacate under 28 U.S.C. §2255 asserting multiple claims of ineffective assistance of trial counsel.
(ECF #217). He was represented by counsel. The motion was denied. (ECF #228). Mr. Persaud sought to

App. 7
appeal the decision but was denied a certiﬁcate of appealability. His petition for rehearing was denied by
the Sixth Circuit on June 6, 2019, and his petition for
a writ of certiorari to the United States Supreme Court
was denied on October 7, 2019. Following these denials, Mr. Persaud obtained new counsel who assisted
him in the ﬁling of the motion now before the Court.
The motion currently before the Court, although
captioned as a motion under Fed. R.Civ.P. 60(b) is
properly construed as a second or successive petition
for relief under 28 U.S.C. §2255. It seeks to raise an
entirely new substantive claim under 28 U.S.C. §2255,
which exactly what happens in a second or successive
claim. See generally, Sims v. Terbush, 111 F.3d 45, 47
(6th Cir. 1997). Re-labeling a new claim for relief as a
request to “re-open” a prior claim is inaccurate and deﬁes the purpose behind the certiﬁcation requirements
for second or successive petitions. As the Sixth Circuit
has stated, because the new grounds for relief “concern
the legitimacy of his trial and conviction, they should
have been raised on direct appeal or in a §2255” motion. Abdur-Rahim v. J.C. Holland, No. 15-5297 (6th
Cir. Jan. 12, 2016). Raising a new claim for relief after
a prior §2255 has already been resolved, requires the
permission of the Court of Appeals. 28 U.S.C. § 2255(h)
Even if Mr. Persaud’s request to re-open could be
viewed as an attack on the resolution of the prior motion, despite the fact that it seeks to raise entirely new
grounds for relief, a Rule 60(b) motion that “attacks the
federal court’s previous resolution of a claim on the
merits,” should be considered a second or successive

App. 8
petition for writ of habeus corpus. Gonzalez v. Crosby,
545 U.S. 524, 532 (2005).1 Mr. Persaud’s argument for
bringing his request for relief under Fed.R.Civ.P. 60(b)
relies entirely on a single Seventh Circuit opinion
which has been otherwise rejected by the Sixth Circuit,
at least in part, for misinterpreting prior Supreme
Court cases. See, Ramirez v. United States, 799 F.3d 845
(7th Cir. 2015); Kapanekas v. Snyder-Morris, No. 166310, 2017 WL 3725355 (6th Cir. Apr. 10, 2017).
The Court, therefore, ﬁnds that Mr. Persaud’s petition is properly viewed as a second or successive motion under §2255. Section 2255 provides that:
A second or successive motion must be certiﬁed as provided in section 2244 by a panel of
the appropriate court of appeals to contain—
(1) newly discovered evidence that,
if proven and viewed in light of the
evidence as a whole, would be sufﬁcient to establish by clear and convincing evidence that no reasonable
factﬁnder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law,
made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable.
See 28 U.S.C. {S}2255(h).
1

Although Gonzoles was a 2254 case, the reasoning was
made applicable to 2255 cases through In re Nailor, 487 F.3d 1018,
1023 (6th Cir. 2007).

App. 9
Because Mr. Persaud has failed to receive authorization from the Sixth Circuit to ﬁle this second, or successive §2255 motion, the motion may not be reviewed
by the Court at this juncture. Therefore, the Clerk of
Court is directed to transfer Mr. Persaud’s instant motion to the Sixth Circuit Court of Appeals pursuant to
In re Sims, 111 F.3d 45, 47 (6th Cir. 1997).
IT IS SO ORDERED.
/s/ Donald C. Nugent
Donald C. Nugent
Senior United States
District Judge
Date:

April 14, 2020

App. 10
No. 20-3422
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
In re: HAROLD PERSAUD,
Movant.

)
ORDER
)
) (Filed Nov. 24, 2020)
)

BEFORE: SUHRHEINRICH, GIBBONS, and
KETHLEDGE, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original submission and decision of the case. The petition then was
circulated to the full court. No judge has requested a
vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

